  March 21, 2003




Financial Management

Recoveries of Prior Year
Obligations
(D-2003-067)




      Office of the Inspector General
                   of the
          Department of Defense
                                    Constitution of
                                   the United States

    A Regular Statement and Account of the Receipts and Expenditures of all public
    Money shall be published from time to time.
                                                               Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DFAS                  Defense Finance and Accounting Service
FMR                   Financial Management Regulation
OMB                   Office of Management and Budget
SF-133                Standard Form 133 “Report on Budget Execution”
STARS                 Standard Accounting and Reporting System
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer
USSGL                 United States Government Standard General Ledger
         Office of the Inspector General of the Department of Defense
Report No. D-2003-067                                                   March 21, 2003
  (Project No. D2002FC-0098)

                Audit of Recoveries of Prior Year Obligations

                               Executive Summary

Who Should Read This Report and Why? Financial management officials throughout
the Department of Defense who produce budget execution reports and create accounting
logic in accounting systems databases should read this report. The report discusses how
to properly record and report recoveries of prior year obligations (recoveries).
Background. The Defense Finance and Accounting Service (DFAS) Cleveland was
established in January 1991 to perform accounting functions for the Department of the
Navy (Navy). DFAS Cleveland developed the Standard Accounting and Reporting
System to account for the transactions within the Navy General Fund. The Standard
Accounting and Reporting System summarizes Navy accounting data to prepare monthly
departmental reports and financial statements. Office of Management and Budget
Circular No. A-11, Part 4, “Instructions on Budget Execution,” requires recoveries to be
reported on the Standard Form 133, “Report on Budget Execution.” Recoveries are any
cancellations or downward adjustments in the current year for obligations incurred in
prior fiscal years that were not yet paid.

Results. DFAS Cleveland used a process to determine the recovery amounts reported on
the Navy General Fund monthly Standard Form 133, “Report on Budget Execution,” that
was not reliable. In FY 2002, DFAS Cleveland posted 9,983 manual journal voucher
entries using invalid general ledger accounts to record the recovery amounts in the
Standard Accounting and Reporting System. As a result, the amounts reported for
recoveries on departmental reports were unreliable, and processes used to enter
recoveries were not in compliance with generally accepted accounting principles. Also,
the effort DFAS Cleveland expended to manually post the recoveries data could have
been put to better use. The unreliable queries and the use of invalid general ledger
accounts would not be necessary if the accounting database was programmed to record
recoveries as they occur at the transaction level. In addition, the DoD Financial
Management Regulation should be updated to bring it in line with guidance issued by the
Department of the Treasury. (See the Finding section of the report for the detailed
recommendations.)

Management Comments. The Under Secretary of Defense (Comptroller)/Chief
Financial Officer and the Director, DFAS Cleveland each concurred with the finding and
their respective recommendation; therefore, no additional comments are required. See
the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.
Table of Contents

Executive Summary                                                        i

Background                                                              1

Objective                                                               2

Finding
     Reporting Recoveries at DFAS Cleveland                             3

Appendixes
     A. Scope and Methodology
          Management Control Program Review                              7
          Prior Coverage                                                 8
     B. Approved Method of Posting Recoveries                            9
     C. Report Distribution                                             11

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer   13
     Defense Finance and Accounting Service                             14
Background
           Role of the Defense Finance and Accounting Service Cleveland. The Defense
           Finance and Accounting Service (DFAS) Cleveland was established in January
           1991 to perform accounting functions for the Department of the Navy (Navy).
           DFAS Cleveland developed the Standard Accounting and Reporting System
           (STARS) to account for the transactions within the Navy General Fund. STARS
           summarizes Navy accounting data to prepare monthly departmental reports and
           financial statements.

           Office of Management and Budget. The Office of Management and Budget
           (OMB) requires all Federal agencies to submit the Standard Form 133, “Report on
           Budget Execution,” (SF-133) to fulfill the requirements of section 1511-1514,
           title 31, United States Code (31 U.S.C. 1511-1514). The SF-133 provides a
           consistent presentation of financial data, provides a basis for obligation patterns,
           ties agency financial statements to budget execution, and allows OMB to monitor
           the status of apportioned funds. OMB Circular No. A-11, Part 4, “Instructions on
           Budget Execution,”1 (OMB Circular A-11) provides guidance for the preparation
           and submission of the SF-133 and requires that recoveries of prior year
           obligations (recoveries) be reported on line 4 of the SF-133. Recoveries are any
           cancellations or downward adjustments in the current year for obligations
           incurred in prior fiscal years that were not yet paid.

           Department of the Treasury. The Department of the Treasury (Treasury)
           gathers and publishes Government-wide financial information that is used by the
           public and private sectors to monitor the Government’s financial status and
           establish fiscal and monetary policies. Treasury maintains and publishes the
           United States Government Standard General Ledger (USSGL). The USSGL
           provides a uniform chart of accounts and technical guidance to be used in
           standardizing Federal agency accounting, which supports the preparation of
           standard external reports required by central agencies. Treasury also publishes
           “approved scenarios” comprising further guidance demonstrating approved
           methods of accounting for specific events. Treasury created an approved scenario
           for upward and downward adjustments to expired appropriations. Treasury also
           agreed to create approved scenarios for upward and downward adjustments for
           unexpired and cancelled appropriations.

           Under Secretary of Defense (Comptroller)/Chief Financial Officer. The
           Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer
           (USD[C]/CFO) develops, promulgates, and interprets DoD-wide accounting
           policies. It implements within the DoD all aspects of the Chief Financial Officers
           Act of 1990 to include audited financial statements. The USD(C)/CFO is
           responsible for creating DoD-wide accounting policy that implements OMB
           Circular A-11 and USSGL policies. The USD(C)/CFO accomplishes this by
           publishing the DoD Financial Management Regulation (FMR). The DoD FMR,
           volume 1, chapter 8, specifies that OMB policy/guidance and the USSGL are
           above the DoD FMR in the hierarchy of accounting standards. Specifically,
1
    The instructions on budget execution were previously provided in OMB Circular No. A-34, “Instructions
    on Budget Execution,” which was rescinded on June 27, 2002.

                                                     1
    volume 3, chapter 15, sections 150203.B13 and 14 of the FMR provide the
    guidance on how to account for recoveries for unexpired and no year
    appropriations. The DoD FMR does not provide guidance on how to account for
    recoveries for expired appropriations.

    Generally Accepted Accounting Principles. The accounting profession
    developed a set of standards that is generally accepted and universally practiced.
    The resulting common set of standards−called generally accepted accounting
    principles−requires that equal increases and decreases in the general ledger be
    recorded for each occurrence or event using a two-sided entry with debits
    equaling credits. Using the double-entry system, accountants verify that debits
    equal credits within the general ledger through the trial balance used to produce
    the financial statements.


Objective
    Our overall audit objective was to evaluate the adequacy of processes and
    procedures used by DFAS to capture, record, and report recoveries of prior year
    obligations. We also reviewed the adequacy of the management control program
    as it related to the audit objective. See Appendix A for a discussion of the audit
    scope and methodology and the review of the management control program.




                                         2
                    Reporting Recoveries at DFAS Cleveland
                    DFAS Cleveland used a process to determine the recovery amounts
                    reported on the Navy General Fund monthly SF-133 that was not reliable.
                    In FY 2002, DFAS Cleveland posted 9,983 manual journal voucher
                    entries using invalid general ledger accounts to record the recovery
                    amounts in STARS. DFAS Cleveland used the unreliable process and
                    invalid general ledger accounts in its journal vouchers because the STARS
                    accounting system was not programmed to record recoveries at the
                    transaction level. Also, guidance in the DoD FMR on reporting of
                    recoveries was not in agreement with OMB Circular A-11 and the
                    USSGL. As a result, the amounts reported for recoveries on departmental
                    reports were unreliable, and processes used to enter recoveries were not in
                    compliance with generally accepted accounting principles. In addition,
                    the effort DFAS Cleveland expended to manually post the recoveries data
                    could have been put to better use if the accounting system was
                    programmed to record recoveries at the transaction level.


DFAS Cleveland Process for Calculating and
  Posting Recoveries
           DFAS Cleveland used a process to calculate the recovery amounts reported on the
           Navy General Fund monthly SF-133 that was not reliable. In FY 2002, DFAS
           Cleveland posted 9,983 manual journal voucher entries using invalid general
           ledger accounts to record the recovery amounts in STARS.

           Process Used to Calculate Recovery Amounts. DFAS Cleveland queried the
           STARS accounting database every month for obligation accounts of the Navy
           appropriations. The queries summed the month-to-date obligation balances by
           appropriation, fiscal year of the appropriation, and subhead.2 If the net amount of
           the subhead was negative, it was considered a recovery and posted to the STARS
           database using a journal voucher entry. This process was not reliable for
           determining recovery amounts because the negative numbers could have included
           transactions that are not recoveries, such as refunds or upward adjustments, which
           should be reported on separate lines on the SF-133. If the net amount of the
           subhead was positive, it was not posted. However, the positive numbers could
           have included recoveries.

           Journal Voucher Entries Used to Post the Recovery Amounts. The negative
           amounts from the queries were entered into the STARS database using journal
           voucher entries to subsidiary accounts of USSGL Account 4310, “Anticipated
           Recoveries of Prior Year Obligations.” In each of the journal voucher entries,
           one side of the entry is made to an invalid account. The valid USSGL accounts

2
    A subhead is a four-position alphanumeric field in STARS used to identify the major claimant in the first
    two positions, the specific budget activity in the third position, and a locally used identifier assigned by
    the major claimant in the fourth position.

                                                         3
      are reported on line 4 of the SF-133, and the invalid accounts are not reported on
      any financial report or statement. Table 1 shows an example of a journal voucher
      entry made to post a recovery in the accounting database with an amount posted
      to an invalid general ledger account.



                  Table 1. Recovery Journal Voucher Entry Posted
                       to an Invalid General Ledger Account

General Ledger
   Account                 Account Title             Debit Amount      Credit Amount
  4310.2110      Recoveries of Prior Year
                 Obligations - Direct Program                              $29,514,320
  4310.4100      Funds Generated from
                 Deobligations of Prior Year Funds      $29,514,320


      In table 1, debits and credits equal, but one side of the entry was posted to an
      invalid general ledger account, 4310.4100, “Funds Generated from Deobligations
      of Prior Year Funds.” The account is considered invalid because it does not post
      to any financial report or statement. Therefore, the use of the invalid account
      violates the two-sided entry rule of accounting.

      The unreliable queries and the use of invalid general ledger accounts would not
      be necessary if the accounting database was programmed to record recoveries as
      they occur at the transaction level. The scenario approved by the Treasury for
      recording recoveries at the transaction level is illustrated in Appendix B.


STARS Programming
      DFAS Cleveland used the unreliable process and invalid general ledger accounts
      in its journal vouchers because the STARS accounting system was not
      programmed to record recoveries at the transaction level. The STARS accounting
      system did not have all of the specific USSGL accounts needed to post recoveries.
      In addition, STARS was not appropriately programmed to use the accounts it did
      have. These system deficiencies prevented DFAS Cleveland from correctly
      capturing and reporting recoveries.


DoD Guidance
      The guidance related to recoveries in the DoD FMR is incorrect. Specifically,
      DoD FMR, volume 3, chapter 15, “Receipt and Use of Budgetary Resources -
      Execution Level,” section 150203.B13 and 14, issued by the USD(C)/CFO, is not

                                           4
    in agreement with published guidance in the USSGL. The guidance in the DoD
    FMR to account for recoveries of prior year obligations directs that Undelivered
    Orders and Delivered Orders accounts be debited (reducing them) and that
    downward adjustment accounts be credited. This is not the correct way to
    account for recoveries because the downward adjustment accounts have a normal
    debit balance, meaning that if you credit a normal balance debit account, you are
    reducing the amount in that account. According to the USSGL, the downward
    adjustment accounts are meant to be increased when a recovery of prior year
    obligation occurs. The DFAS Cleveland STARS program office was not
    following the guidance published in the DoD FMR, OMB Circular A-11, or
    USSGL.


Financial Impact
    The amounts reported for recoveries on departmental reports were unreliable and
    the journal voucher entries used to post the recovery amounts were not in
    compliance with generally accepted accounting principles. Therefore, the
    monthly departmental reports and financial statements were unreliable. The
    incorrect guidance in the DoD FMR had a potentially adverse effect DoD-wide.
    Revising the DoD FMR would allow all Defense organizations to update their
    accounting systems to correctly capture, record, and report recoveries. In
    addition, the effort DFAS Cleveland expended to manually post the recoveries
    data could have been put to better use if the accounting system was programmed
    to record recoveries at the transaction level.


Actions Taken By Management
    On April 25, 2002, DFAS Cleveland Departmental and Command Reporting
    division submitted a request for a programming change to the STARS accounting
    database to automate queries now used to post recoveries to line 4 of the SF-133.
    The Departmental and Command Reporting division is requesting this action
    because it will alleviate approximately 10,000 journal voucher entries required
    annually to post recoveries. However, the queries used to determine the amount
    of recoveries are not reliable. The programming change will not correct the
    problem, but will only make the incorrect accounting automatic rather than
    manual.


Conclusion
    Unreliable processes resulted in unreliable financial reporting. Inadequate
    general ledger control and the use of invalid general ledger accounts in manual
    journal voucher entries were perpetuated by deficiencies in STARS. As a result,
    the departmental reports and financial statements were unreliable. Further, the
    guidance in the DoD FMR is incorrect. It is not in agreement with the USSGL.
    Reprogramming the DFAS Cleveland accounting systems and revising the

                                        5
    guidance provided in the DoD FMR will alleviate the incorrect reporting of
    recoveries of prior year obligations by DFAS Cleveland and enable DFAS
    Cleveland to put to better use the personnel effort required by manual journal
    vouchers.


Recommendations and Management Comments
    1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
       Financial Officer revise the Financial Management Regulation to be
       consistent with recovery reporting guidance issued by the Office of
       Management and Budget and the Department of the Treasury.

       Management Comments. The Under Secretary of Defense
       (Comptroller)/Chief Financial Officer concurred and agreed to revise the
       Financial Management Regulation.

    2. We recommend that the Director, Defense Finance and Accounting
       Service Cleveland program its accounting systems to properly capture,
       record, and report recoveries of prior year obligations.

       Management Comments. The Deputy Director, DFAS Cleveland concurred
       and agreed to program the Standard Accounting and Reporting System
       database to capture, record, and report recoveries of prior year obligations.




                                         6
Appendix A. Scope and Methodology
    The overall audit objective was to evaluate the adequacy of processes and
    procedures used by DFAS to capture, record, and report recoveries of prior year
    obligations. Specifically, we performed the audit at DFAS Cleveland. In addition
    to DoD, we had numerous contacts, both telephonically and electronically, with
    OMB and Treasury.

    We reviewed the processes and procedures of the STARS accounting system that
    resulted in journal voucher entries made to invalid general ledger accounts. We
    queried the accounting database and downloaded all journal voucher entries
    produced for the first three quarters of FY 2002. The data were sorted to separate
    journal vouchers using invalid general ledger accounts and further sorted to
    isolate the ones specifically associated with recoveries. There were 9,983 journal
    voucher entries produced in this category, which equates to approximately
    31 percent of all journal voucher entries produced in STARS for the Navy
    General Fund during FY 2002. We also reviewed the execution codes used by
    STARS for these entries.

    We investigated and clarified the hierarchy of policy guidance from OMB,
    Treasury, and DoD concerning recoveries of prior year obligations. DFAS is
    required to follow the financial/budget reporting guidance of the OMB and
    Treasury and the financial guidance of the DoD FMR.

    We performed this audit from March 2002 through December 2002, in
    accordance with generally accepted government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the DFAS Cleveland STARS accounting database to identify journal voucher
    entries containing invalid general ledger accounts. We did not establish the
    reliability of the data because our goal was to obtain an approximate number of
    journal vouchers containing invalid general ledger accounts. Not establishing the
    reliability of the database will not affect the results of our audit.
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the Department of Defense. This report
    provides coverage of the Defense Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.



                                        7
    Scope of the Review of the Management Control Program. We evaluated
    DFAS Cleveland management controls over the processes and procedures for
    handling recoveries of prior year obligations. Specifically, we reviewed DFAS
    Cleveland management controls over the STARS accounting system and the
    preparation of monthly budget execution reports. We also reviewed the adequacy
    of management’s self-evaluation of those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for DFAS Cleveland, as defined by DoD Instruction 5010.40.
    DFAS Cleveland management controls for the STARS accounting database and
    budget execution reporting were not adequate to ensure that recoveries of prior
    year obligations were captured and reported correctly. STARS was not coded to
    use the proper accounts necessary to capture and record these events. Also,
    DFAS Cleveland used invalid general ledger accounts in its journal voucher
    entries to manually post an amount on line 4 of the SF-133. Recommendation 2,
    if implemented, will prevent inaccurate and unreliable reporting of recoveries of
    prior year obligations. A copy of the report will be provided to the senior official
    responsible for management controls at DFAS Cleveland.

    Adequacy of Management’s Self-Evaluation. Management at DFAS Cleveland
    did identify the STARS accounting database and the Departmental and Command
    Reporting Division as assessable units. However, in its evaluation, DFAS
    Cleveland STARS program office and Departmental and Command Reporting
    Division did not identify the specific material management control weaknesses
    identified by the audit.


Prior Coverage
    The General Accounting Office, the Office of the Inspector General of the
    Department of Defense (IG DoD), and the Naval Audit Service have conducted
    multiple reviews related to financial issues. General Accounting Office reports
    can be accessed on the Internet at http://www.gao.gov. IG DoD reports can be
    accessed on the Internet at http://www.dodig.osd.mil/audit/reports. Naval Audit
    Service reports can be accessed on the Internet at
    http://www.hq.navy.mil/navalaudit.




                                         8
Appendix B. Approved Method of Posting
            Recoveries
     Treasury provided an approved scenario for upward and downward adjustments
     to expired appropriations that was effective beginning in FY 2000. Included in
     the approved scenario was guidance on how to account for recoveries at the
     transaction level. Table B-1 illustrates the accounting entry suggested by the
     approved scenario to post a recovery in the expired phase of an appropriation.

     As shown in Table B-1, USSGL account 4871, “Downward Adjustments of Prior
     Year Unpaid Undelivered Orders – Obligations, Recoveries,” is being increased
     to account for the recovery from a prior year obligation. Account 4650,
     “Allotments – Expired Authority,” is being increased, thereby placing the
     deobligated funds into the expired allotment category. Table B-2 illustrates the
     accounting entry suggested by the approved scenario to close USSGL account
     4871 at the end of the year.



       Table B-1. Treasury Approved Scenario of Transaction-Level Entry
                  for a Recovery of an Expired Appropriation

General Ledger
   Account               Account Title            Debit Amount        Credit Amount
                 Downward Adjustments of
  4871.0000      Prior Year Unpaid Undelivered       $100,000
                 Orders - Obligations,
                 Recoveries
  4650.0000      Allotments – Expired Authority                          $100,000




                                         9
     As shown in Table B-2, USSGL account 4871 is decreased and closed out to
     USSGL account 4801, “Undelivered Orders – Obligations, Unpaid,” thereby
     reducing the outstanding obligated amount.



                  Table B-2. USSGL Closing Entry for a Downward
                 Adjustment (Recovery) for an Expired Appropriation


General Ledger
   Account               Account Title           Debit Amount       Credit Amount

  4801.0000      Undelivered Orders –
                 Obligations, Unpaid               $100,000

                 Downward Adjustments of
  4871.0000      Prior Year Unpaid Undelivered
                 Orders - Obligations,
                 Recoveries                                           $100,000




                                         10
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations
Deputy Associate Director, Office of Management and Budget
Commissioner, Financial Management Service, Department of the Treasury




                                          11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          12
Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments




                      13
Defense Finance and Accounting Service
Comments




                      14
15
Team Members
The Defense Financial Auditing Service Directorate, Office of the Assistant
Inspector General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Raymond D. Kidd
Linda A. Pierce
David J. Ramseyer
Jeffrey L. Gongola
Catherine Bird
Ann Thompson




                                   17
